No. 20-326
IN THE

6upreme Court of the aluiteb 6tate5
MITCHELL J. STEIN,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit
BRIEF OF AMICUS CURIAE THE CENTER ON
THE ADMINISTRATION OF CRIMINAL LAW
AT NYU SCHOOL OF LAW IN SUPPORT OF
PETITIONER
Courtney M. Oliva
Executive Director
CENTER ON THE
ADMINISTRATION OF
CRIMINAL LAW AT
NYU SCHOOL OF LAW
139 MacDougal Street
New York, NY 10012
(212) 998-6612

Mark W. Mosier
Counsel of Record
Rafael Reyneri
Megan C. Keenan
COVINGTON & BURLING T LP
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
mmosier@cov.com
Counsel for Amicus
Curiae

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES
INTEREST OF AMICUS CURIAE

1

INTRODUCTION AND SUMMARY OF
ARGUMENT

2

ARGUMENT

4

Napue and Brady Protect Different Due
Process Rights.

4

Allowing Prosecutors to Introduce False
Testimony Increases the Risk of Wrongful
Convictions Because Defendants Often
Cannot Effectively Rebut Such Testimony.

9

III.Napue's Remedial Measures Are Necessary
to Discourage Prosecutors from Introducing
False Testimony.

14

CONCLUSION

20

11

TABLE OF AUTHORITIES
Page(s)
Cases
Berger v. United States, 295 U.S. 78 (1935)

10

Brady's, Conyers v. State,
790 A.2d 15 (Md. 2002)

Brady v. Maryland, 373 U.S. 83 (1963)

5, 6

passim

Chapman v. California, 386 U.S. 18 (1967)

14

Gomez v. Comm'r of Correction,
No. 20089, 2020 WL 3525521
(Conn. June 29, 2020)

7

Jackson v. Brown, 513 F.3d 1057 (9th Cir. 2008)

6

Lisenba v. California, 314 U.S. 219 (1941)

4

Napue v. Illinois, 360 U.S. 264 (1959)

passim

People v. Smith, 870 N.W.2d 299 (Mich. 2015)

8

Perry v. New Hampshire, 565 U.S. 228 (2012)

5

Rosencrantz v. Lafler,
568 F.3d 577 (6th Cir. 2009)

United States v. Agurs, 427 U.S. 97 (1976)
United States v. Bagley, 473 U.S. 667 (1985)

13
6
5, 6

111

United States v. Foster,
874 F.2d 491 (8th Cir. 1988)

7, 8

United States v. LaPage,
231 F.3d 488 (9th Cir. 2000)

7

United States v. O'Connor,
650 F.3d 839 (2d Cir. 2011)

13

United States v. Simmons,
923 F.2d 934 (2d Cir. 1991)

13

United States v. Skilling,
554 F.3d 529 (5th Cir. 2009)

12

United States v. Sutton,
542 F.2d 1239 (4th Cir. 1976)

8

Statutes
18 U.S.C. § 242

16

Other Authorities
Am. Bar Ass'n, Standards for Criminal
Justice: Prosecution and Defense
Function (4th ed. 2015)

15

Lara A. Bazelon, Hard Lessons: The
Role of Law Schools in Addressing
Prosecutorial Misconduct,
16 Berkeley J. Crim. L. 391 (2011)

17

Cal. Comm'n on Fair Admin. of Justice,
Final Report (2008)

17

iv
Brandon L. Garrett, Convicting the
Innocent Redux, University of
Virginia School of Law, Public Law
and Legal Theory Research Paper
Series (Aug. 2015)

9, 10

Brad Heath & Kevin McCoy,
Prosecutors' Conduct Can Tip Justice
Scales, USA Today (Sept. 23, 2010)

18

Margaret Z. Johns, Reconsidering
Absolute Prosecutorial Immunity,
2005 B.Y.U. L. Rev. 53 (2005)

16

Hon. Alex Kozinski, Criminal Law 2.0,
44 Geo. L.J. Ann. Rev. Crim. Proc. iii
(2015)

19

Karen McDonald Henning, The Failed
Legacy of Absolute Immunity Under
Imbler: Providing a Compromise
Approach to Claims of Prosecutorial
Misconduct, 48 Gonz. L. Rev. 219
(2012)

14

Nat'l Dist. Att'ys Ass'n, National
Prosecution Standards (3d ed. 2009)

16

N.Y. State Bar Ass'n Task Force on
Wrongful Convictions, Final Report
(2009)

18

V

Kenneth B. Nunn, The Trial as Text:
Allegory, Myth and Symbol in the
Adversarial Criminal Process—A
Critique of the Role of the Public
Defender and a Proposal for Reform,
32 Am. Crim. L. Rev. 743 (1995)

10, 11

Hilary Oran, Does Brady Have Byte?
Adapting Constitutional Disclosure
for the Digital Age, 50 Colum. J.L. &
Soc. Probs. 97 (2016)

12

Kathleen M. Ridolfi & Maurice Possley,
Preventable Error: A Report on
Prosecutorial Misconduct in California 1997- 2009 (N. Cal. Innocence
Project 2010)

17

Sonja B. Starr, Sentence Reduction as a
Remedy for Prosecutorial
Misconduct, 97 Geo. L.J. 1509 (2009)

16

Thomas P. Sullivan & Maurice Possley,
The Chronic Failure To Discipline
Prosecutors for Misconduct:
Proposals for Reform, 105 J. Crim. L.
& Criminology 881 (2015)

18

1
INTEREST OF AMICUS CURIAE
The Center on the Administration of Criminal Law
at NYU School of Law (the "Center") is dedicated to
defining and promoting good government practices in
the criminal justice system through academic research, litigation, and public policy advocacy.' The
Center regularly participates as amicus curiae in
cases raising substantial legal issues regarding interpretation of the Constitution, statutes, regulations, or
policies. The Center supports challenges to practices
that raise fundamental questions of defendants'
rights or that the Center believes constitute a misuse
of government resources. The Center also defends
criminal justice practices where discretionary decisions align with applicable law and standard practices
and are consistent with law-enforcement priorities.
The Center's appearance as amicus curiae in this
case is prompted by its belief that criminal convictions
should be untainted by false evidence. In the Center's
experience, juries are likely both to assume that the
prosecution believes testimony that it presents to be
true and to be skeptical of defendants' efforts to discredit that testimony. Only the government's own
correction of its witnesses' false testimony can ensure
the fair administration of criminal justice.

1 No party or counsel for any party authored any part of this brief
or made a monetary contribution intended to fund the preparation or submission of this brief. The parties have consented to the
filing of this brief. The Center is affiliated with New York University, but no part of this brief purports to represent the views
of New York University School of Law or New York University.

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
A criminal defendant's due process rights are violated when the prosecutor knowingly elicits false
testimony and does not correct the testimony. See,
e.g., Napue v. Illinois, 360 U.S. 264, 270 (1959). A
criminal defendant's due process rights are also violated when the government suppresses material,
exculpatory evidence. See, e.g., Brady v. Maryland,
373 U.S. 83 (1963). In the decision below, the Eleventh
Circuit treated these two lines of cases as effectively
protecting only a single due process right. In the court
of appeal's view, because the state had not suppressed
exculpatory evidence in violation of Brady, there was
no Napue violation, even if the prosecutor allowed
false testimony to go uncorrected. As Petitioner
demonstrated, the relationship between the due process rights that Napue and Brady protect has
generated confusion in the courts of appeals and state
supreme courts. This Court's review is needed to resolve that confusion.
I. Napue and Brady provide complementary but
distinct due process rights. Both cases recognize due
process rights that play important roles in protecting
a defendant's right to a fair trial, and in curbing governmental abuse of power. But the rights themselves
are distinct. Brady protects the right to a fair trial by
providing defendants with pre-trial access to favorable evidence for use in their defense. Napue, in
contrast, protects the right to a fair trial by preventing
the government from knowingly using false testimony
or evidence during the trial itself. Many courts have
correctly recognized this distinction and, unlike the

3
Eleventh Circuit here, have found a Napue violation
even when the government satisfied its Brady obligations.
Due process demands more than simply ensuring that the defense can attempt to rebut false
testimony. Allowing prosecutors to introduce false testimony undermines the criminal justice system
because it increases the risk of wrongful convictions.
False testimony is a frequent factor in wrongful convictions, and there is reason to doubt that the defense
can effectively prove the falsity of the testimony be
government witnesses. Juries afford the government
witnesses a presumption of credibility that defendants cannot reliably eliminate through crossexamination. Moreover, defense counsel as a practical
matter cannot feasibly rebut every possible falsity on
the spot during trial. Finally, a defendant's right to
appeal does not alleviate this concern because it will
be difficult to know exactly how much weight a jury
placed on the false testimony—a difficulty compounded by the deference given to a jury's view of a
witness's credibility.
Prosecutors face competing pressures to do justice and to secure convictions. To protect a defendant's
right to a fair trial, courts must constrain prosecutorial overzealousness by ensuring that the obligation to
do justice prevails over the desire to obtain convictions. By setting aside a conviction if a prosecutor
elicits testimony that he knows to be false and fails to
correct it, Napue's remedy ensure that prosecutors
have the proper incentives to avoid eliciting false testimony in the first place. This remedy is critical

4
because disciplinary proceedings do not effectively deter misconduct.
ARGUMENT
I.

NAPUE AND BRADY PROTECT DIFFERENT DUE PROCESS RIGHTS.

The Eleventh Circuit held that the government's
knowing use of false testimony generally does not violate due process unless the defendant "identif[ies]
evidence the government withheld that would have
revealed the falsity of the testimony." Pet. App. 19.
That holding conflates the two distinct due process
rights recognized in Napue and Brady, which are independently necessary to provide "that fundamental
fairness essential to the very concept of justice."
Lisenba v. California, 314 U.S. 219, 236 (1941).
In Napue, the Court held that the government's
knowing use of false testimony "prevent [s] . . . a trial
that could in any real sense be termed fair." 360 U.S.
at 270. When false testimony "appears" in a criminal
trial, and the government is aware of the falsity, the
prosecutor cannot remain "silen[t]," but instead "has
the responsibility and duty to correct what [it] knows
to be false and elicit the truth." Id. at 270.
Four years after Napue, the Court held in Brady
that "the suppression by the prosecution of evidence
favorable to an accused upon request violates due process where the evidence is material either to guilt or
punishment, irrespective of the good faith or bad faith
of the prosecution." 373 U.S. at 87. In deciding Brady,
the Court did not suggest that it was displacing Napue's clear rule prohibiting the knowing use of false

5
testimony. Nor have this Court's more recent decisions interpreted Brady as modifying the Napue rule.
On the contrary, the Court recently cited Napue's prohibition on the "knowing use of false evidence" as an
example of the Due Process Clause's "constraint" on
evidence "so extremely unfair that its admission violates fundamental conceptions of justice." Perry v.
New Hampshire, 565 U.S. 228, 237 (2012) (quotation
marks and citation omitted).
Brady and Napue are properly treated as protecting distinct due process rights because they serve
different purposes. Brady imposes obligations on prosecutors before the trial to disclose favorable evidence
to the defendant. Brady's disclosure requirement
serves the broad goal of enabling the accused to defend himself in court by providing access to material
information in the government's possession, an opportunity to open new lines of investigation and trial
preparation strategies, and an opportunity to present
that evidence to the jury. In contrast, Napue places
obligations on prosecutors during trial to protect defendants from being convicted based on the
government's knowing use of false testimony. Napue's
distinct protection is critical—regardless of whether
relevant evidence was suppressed or disclosed—because the defendant's right to a fair trial is
undermined if the prosecution knowingly relies on
false testimony.
That Napue and Brady protect different rights is
evident from the different tests that apply for each
right. A Napue violation occurs only when the prosecutor knew, or should have known, that the testimony
was false. See, e.g., United States v. Bagley, 473 U.S.

6
667, 679 n.8 & 9 (1985); United States v. Agurs, 427
U.S. 97, 103-04 (1976). In contrast, a prosecutor may
unknowingly violate Brady by failing to identify and
turn over exculpatory evidence in the government's
case files. See, e.g., Bagley, 473 U.S. at 679.2
The two due process rights are also subject to different standards of appellate review. Napue requires
reversal of a conviction unless the government proves
that introduction of false evidence was "harmless beyond a reasonable doubt." Bagley, 473 U.S. at 680. By
contrast, Brady requires affirmance unless the defendant shows the government suppressed material,
exculpatory evidence and establishes "a reasonable
probability that," had the prosecution disclosed the
evidence, "the result of the proceeding would have
been different." Bagley, 473 U.S. at 682 (quotation
marks and citation omitted). Given this difference,
courts routinely observe that this "analysis proceeds
differently for Brady and Napue claims," Jackson v.
Brown, 513 F.3d 1057, 1076 (9th Cir. 2008), and that
Napue's standard is "more defendant-friendly" than
Brady's, Conyers v. State, 790 A.2d 15, 38 (Md. 2002).
In contrast to the decision below, many courts have
appropriately held that a Napue violation can occur
2 In Agurs and Bagley, the Court characterized a Napue violation
as a type of Brady violation. See Agurs, 427 U.S. at 103; Bagley,
473 U.S. at 678. But the Court was not treating Napue and Brady
as addressing the same due process right like the Eleventh Circuit here. Rather, the Court observed that Brady violations can
take numerous different forms, be based on different government
conduct, and impose different obligations on the defendant to
prove a violation. See id. The Court's discussion of the different
lines of cases in Agurs and Bagley thus confirms that the cases
protect different rights.

7
even when the government has satisfied its Brady obligations. As the Connecticut Supreme Court recently
explained:
The rule advocated by the respondent,
namely, that disclosure to defense counsel either conclusively or presumptively
satisfies Napue, is simply incompatible
on its face with the principles that the
United States Supreme Court articulated in that case. . . .
Napue, the
high court was principally concerned not
with the harms that flow from the suppression of exculpatory evidence but,
rather, with the more fundamental insult to due process when the state
knowingly attempts to secure the conviction of a criminal defendant on the basis
of falsehoods and fabrications. . . . To
hold otherwise would be to condone, if
not encourage, unethical and unprofessional conduct on the part of the
prosecutor.
Gomez v. Comm'r of Correction, No. 20089, 2020 WL
3525521, at *8 (Conn. June 29, 2020); see also United
States v. LaPage, 231 F.3d 488, 491-92 (9th Cir.
2000); United States v. Foster, 874 F.2d 491, 495
(8th Cir. 1988).
Many courts have relied on Napue to reverse convictions without holding that Brady had also been
violated. For example, in United States v. Foster, 874
F.2d 491 (8th Cir. 1988), the Eighth Circuit reversed

8
a conviction where a prosecutor failed to correct witnesses' false testimony, even though the defense was
aware that the testimony was false. See id. at 494-95.
As the court of appeals explained: "The fact that defense counsel was also aware of the letters but failed
to correct the prosecutor's misrepresentation is of no
consequence." Id. Rather, "[t]he obligation to avoid
presenting false or misleading testimony of its own
witness begins and ends with the prosecution." People
v. Smith, 870 N.W.2d 299, 306 n.7 (Mich. 2015).
The Eleventh Circuit's approach—which makes
suppression of evidence an element of a Napue
claim—fails to safeguard the truth-seeking function of
the trial. Take, for example, the facts of United States
v. Sutton, 542 F.2d 1239, 1243 (4th Cir. 1976), where
the Fourth Circuit reversed a conviction on Napue
grounds. There, the testimony of a key witness was
induced by threats of an FBI agent, but the prosecutor
had told the jury that no one had ever threatened the
witness in question. Thus, the "prosecution allowed a
false impression to be created at trial when the truth
would have directly impugned the veracity of its key
witness." Id. Under the reasoning of the decision below, so long as the prosecutor turned over evidence
before trial regarding the FBI agent's conduct, the
government could knowingly elicit false testimony
about whether the witness was threatened. The truthseeking function of a trial is no less destroyed because
the government disclosed its lie to the defendant in
advance.

9
II. ALLOWING PROSECUTORS TO INTRODUCE FALSE TESTIMONY INCREASES
THE RISK OF WRONGFUL CONVICTIONS BECAUSE DEFENDANTS OFTEN
CANNOT EFFECTIVELY REBUT SUCH
TESTIMONY.
By conflating Napue and Brady, the Eleventh Circuit's approach allows prosecutors to introduce false
testimony so long as they provide defendants with the
information necessary to rebut that testimony. This
approach will lead to more wrongful convictions because the introduction of false testimony often results
in wrongful convictions, and defendants often face difficulty in explaining to a jury that the false testimony
is in fact false.
The fairness of the criminal justice system is severely undermined by the introduction of false
testimony. False testimony is a frequent factor in
wrongful convictions. 3 A review of 330 cases in which
the defendant was exonerated based on DNA evidence
showed that 72% of the convictions involved incorrect
eyewitness identifications.4 Twenty-four percent of
the cases involved false testimony by government informants.5 As the study's author explained, "[flew
jurisdictions across the country have adopted any
See Brandon L. Garrett, Convicting the Innocent Redux at 7,
University of Virginia School of Law, Public Law and Legal Theory Research Paper Series 2015-39 (Aug. 2015),
https://papers.ssrn.com/sol3/papers.cfm?abstract_id=2638472.
3

4

Id.

5

Id. at 7.

10
rules to better safeguard the reliability of informant
testimony in response to these wrongful convictions.
This problem of unreliable and contaminated informant testimony is one that still requires urgent
attention."6
Far from solving this problem, the Eleventh Circuit's approach will exacerbate it. Under the decision
below, a prosecutor does not violate a defendant's due
process rights by knowingly eliciting false testimony
so long as the defendant has the evidence necessary to
prove the falsity of the testimony. But this approach—
requiring defendants to disprove false testimony— depends entirely on the ability of defendants to
successfully convince juries that false testimony is
false. There are good reasons to think that defendants
will often fail to do so.
The testimony of government witnesses carries a
presumptive credibility in the minds of jurors that
cross-examination by the defense cannot reliably
eliminate. Jurors generally trust prosecutors to present evidence that the prosecutors believe to be true.
They understand that prosecutors are public servants
committed to the pursuit of justice. See Berger v.
United States, 295 U.S. 78, 88 (1935) (government's
interest "in a criminal prosecution is not that it shall
win a case, but that justice shall be done"). And prosecutors often capitalize on their role in the criminal
justice system by telling jurors that they represent
"the state" or "the people," thereby suggesting that
they represent the jurors' interests. Kenneth B. Nunn,
The Trial as Text: Allegory, Myth and Symbol in the
6

Id. at 12.

11
Adversarial Criminal Process—A Critique of the Role
of the Public Defender and a Proposal for Reform, 32
Am. Crim. L. Rev. 743, 786-88 (1995). This dynamic
allows a prosecutor to "position himself and the jury
as 'us' and the defendant and his attorney as 'them."'
Id. As a result, many jurors will be influenced into believing testimony simply because the government
offered it and will be skeptical of testimony offered by
a defendant facing criminal charges.
There is also reason to doubt that the truth will
always prevail because of the challenge that defense
counsel will face in timely and effectively rebutting
the false testimony. Prosecutors do not provide advance notice to defense counsel that they intend to
elicit false testimony. Defense counsel thus will regularly be caught off guard by such testimony. Even if
defense counsel knows that testimony is false, it still
must prove the point to a jury. That will require being
able to quickly identify the documents disproving the
testimony and conducting an effective cross-examination on the spot. It does not further the fair
administration of justice to encourage prosecutors to
surprise the defense with false testimony to see
whether the defense counsel is up to challenge of
quickly and definitively disproving the testimony.
Identifying false testimony can also be challenging, even for able defense counsel. By importing Brady
into this analysis, the Eleventh Circuit did not ask
whether defense counsel knew the testimony was
false, but rather whether they had access to documents that established its falsity. Pet. App. 49a.
Complex criminal proceedings increasingly involve

12
vast amounts of evidentiary discovery. Cases involving alleged financial crimes or similar offenses can
generate thousands or even millions of pages of discovery, and wiretaps can produce hundreds of hours
of recordings. See, e.g., United States v. Shilling, 554
F.3d 529, 577 (5th Cir. 2009) ("several hundred million pages" of documents), aff'd in part and vacated in
part on other grounds, 561 U.S. 358 (2010); Hilary
Oran, Does Brady Have Byte? Adapting Constitutional
Disclosure for the Digital Age, 50 Colum. J.L. & Soc.
Probs. 97, 100 n.12 (2016) (citing additional cases). In
such cases, the defendant may not even identify the
relevant impeachment evidence.
Petitioner's case shows how that unfairness can
arise. The impeaching evidence was disclosed in a
batch of 282,000 documents, representing 185 gigabytes of data and 1.75 million pages. Opp'n to Def.'s
Mot. to Compel, Ex. 1 at 2, ECF No. 46-1 (S.D. Fla.
June 21, 2012). Although the government provided a
list of "hot documents," the list did not include the relevant evidence. See C.A. Reply Br. 7 (Jan. 4, 2016).
Separate from the government's production, petitioner later obtained independent access to the
impeaching evidence as part of a large database of
documents maintained by his former employer. See
DE 264-14 11 3-4. But petitioner did not uncover the
documents in question until after the government
completed its case-in-chief and the witnesses were excused. See id. ¶ 4. Thus, petitioner had no opportunity
to rebut the false testimony on cross-examination because he had not yet found the documents.

13
Finally, the concern that a jury will believe false
testimony cannot be alleviated by pointing to the defendant's right to appeal. Typically, it will be hard to
know exactly how much weight a jury placed on the
false testimony, so the government will regularly attempt to dismiss the false testimony as resulting in
harmless error. See, e.g., Rosencrantz v. Lafler, 568
F.3d 577, 588 (6th Cir. 2009) (finding prosecution's
knowing use of false testimony to be harmless error).
And the difficulty in prevailing on appeal is compounded by the deference given to a jury's view of a
witness's credibility. See, e.g., United States v. O'Connor, 650 F.3d 839, 855 (2d Cir. 2011) ("It is the
province of the jury and not of the court to determine
whether a witness who may have been inaccurate,
contradictory and even untruthful in some respects
was nonetheless entirely credible in the essentials of
his testimony." (quotation marks and citation omitted)); United States v. Simmons, 923 F.2d 934, 953 (2d
Cir. 1991) ("allegedly inconsistent prior statements
. . . relate only to [witness's] credibility"; "[b]ecause, on
appeal, we must construe the evidence in the light
most favorable to the Government, we reject this challenge to [witness's] testimony").
In short, due process demands more than simply
ensuring that the, defense has the opportunity to
cross-examine witnesses regarding their false statements. Allowing prosecutors to introduce false
testimony increases the risk of wrongful convictions
because the jury may not correctly identify the testimony as false, either because they place more weight
on testimony elicited by the government or because
defense counsel does not rebut the testimony effectively.

14
III.

NAPUE'S REMEDIAL MEASURES ARE
NECESSARY TO DISCOURAGE PROSECUTORS FROM INTRODUCING FALSE
TESTIMONY.

Properly construed, Napue requires a prosecutor to
correct testimony that the prosecutor knows is false.
Napue, 360 U.S. at 270. If the prosecutor's failure to
do so comes to light after the defendant has been convicted, the verdict must be overturned unless the
government demonstrates, beyond a reasonable
doubt, that the false testimony did not contribute to
the conviction. See id. at 269 ("[Al conviction obtained
through use of false evidence, known to be such by
representatives of the State, must fall under the Fourteenth Amendment. The same result obtains when
the State, although not soliciting false evidence, allows it to go uncorrected when it appears."); see also
Chapman v. California, 386 U.S. 18, 26 (1967). These
remedial measures for addressing false testimony are
necessary to ensure that prosecutors have the proper
incentives to avoid eliciting false testimony in the first
place.
Prosecutors often feel pressure to obtain convictions because they are frequently evaluated and
rewarded based on their conviction rates. "Conviction
rates serve as a tool to evaluate prosecutors, and trial
prosecutors may use their rates of convictions to obtain both promotions within and positions outside of
the office." Karen McDonald Henning, The Failed Legacy of Absolute Immunity Under Imbler: Providing a
Compromise Approach to Claims of Prosecutorial Misconduct, 48 Gonz. L. Rev. 219, 253 (2012). This
emphasis on conviction rates encourages prosecutors

15
to employ all legally available tactics to obtain convictions.
Introducing false evidence will be viewed as an allowable tactic if the decision below is allowed to stand.
Indeed, the Eleventh Circuit made clear that a prosecutor could elicit false testimony without violating the
defendant's due process rights so long as the prosecutor complied with its Brady obligations. Given the
possibility that a jury will nevertheless credit the false
testimony, see Part II supra, prosecutors may think it
advantageous to introduce false testimony.
The Napue rule is necessary because in practice
there is no meaningful alternative to discourage prosecutors from knowingly introducing false testimony.
Disciplinary proceedings often are put forward as one
such alternative. But such proceedings are rarely instituted against prosecutors that violate the rules
governing their conduct—rendering this tool ineffective as a deterrent. 7 As one commentator has
Professional rules have long prohibited the kind of conduct Napue seeks to deter. The American Bar Association's Criminal
Justice Standards for the Prosecution Function provide that, "if
the prosecutor discovers that false evidence or testimony has
been introduced by the prosecution, the prosecutor should take
reasonable remedial steps." Am. Bar Ass'n, Standards for Criminal Justice: Prosecution and Defense Function § 3-6.6(c) (4th ed.
2015). According to the ABA standards, "[i]f the witness is still
on the stand, the prosecutor should attempt to correct the error
through further examination," and, "[i]f the falsity remains uncorrected or is not discovered until the witness is off the stand,
the prosecutor should notify the court and opposing counsel for
determination of an appropriate remedy." Id. Similarly, the National District Attorneys Association's National Prosecution
Standards state that, "[i]f a prosecutor learns that material evidence previously presented by the prosecutor is false, the

16
explained, prosecutors "virtually never face discipline
[from the bar] even when courts identify misconduct."
Sonja B. Starr, Sentence Reduction as a Remedy for
Prosecutorial Misconduct, 97 Geo. L.J. 1509, 1517
(2009). According to this commentator, "bringing ethics complaints against prosecutors" may be viewed as
"career suicide."' Id. at 1518.
In 2003, the Center for Public Integrity conducted
a comprehensive study of prosecutorial misconduct,
examining 11,452 cases since 1970 in which appellate
courts reviewed prosecutorial-misconduct claims. See
Margaret Z. Johns, Reconsidering Absolute Prosecutorial Immunity, 2005 B.Y.U. L. Rev. 53, 60, 67 (2005).
In the overwhelming majority of cases, the alleged
misconduct was either not addressed or ruled to be
harmless error. See id. Misconduct resulted in the dismissal of charges, reversal of convictions, or reduction
in sentences in more than 2,000 cases. See id. But
prosecutors were disciplined in only 44 of those cases
and were never criminally prosecuted. See id. at 60,
70. Moreover, of those 44 cases, only two resulted in
disbarments. See id. at 70.
Federal prosecutions under 18 U.S.C. § 242 are
similarly ineffective. This law was enacted in 1866 to
provide criminal liability for government officials who
violate constitutional protections. Id. at 71. But in the
153 years since its enactment, only one prosecutor has
been convicted under the statute. See id.

prosecutor shall take reasonable remedial measures to prevent
prejudice caused by the false evidence." Nat'l Dist. Att'ys Ass'n,
National Prosecution Standards § 6-1.3 (3d ed. 2009).

17
Other evidence demonstrates the futility of relying
on prosecutorial discipline as a check against the use
of false testimony. A 2008 report by the California
Commission on the Fair Administration of Justice, an
arm of the State of California, described a review of
"54 cases in which prosecutorial misconduct resulted
in a reversal" between 1998 and 2008. Cal. Comm'n
on Fair Admin. of Justice, Final Report at 71 (2008)
("CCFAJ Final Report"), http://digitalcommons.law.scu.edu/ncippubs/1/. California state law
requires "a report . . . to the State Bar" whenever a
conviction is reversed. CCFAJ Final Report at 71. But
a State Bar employee reported to the Commission
that, "after checking half of these 54 cases," the employee "had yet to find a single example of a report by
a court of misconduct," even though "each year the
State Bar sends out a letter reminding judges of the
statutory requirements." Id.
A 2009 study by the Northern California Innocence
Project reviewed 707 California cases from 1997 to
2009 that "explicitly found misconduct," out of 4,000
cases in which such conduct was alleged. Lara A. Bazelon, Hard Lessons: The Role of Law Schools in
Addressing Prosecutorial Misconduct, 16 Berkeley J.
Crim. L. 391, 399 n.12 (2011). "[T]he offending prosecutors were 'almost never discipline[d]."' Id. (quoting
Kathleen M. Ridolfi & Maurice Possley, Preventable
Error: A Report on Prosecutorial Misconduct in California 1997-2009, at 3 (N. Cal. Innocence Project
2010)).
A 2009 New York State Bar Association Task
Force on Wrongful Convictions found similar results.
The Task Force studied 53 cases where convictions

18
were overturned and the defendants exonerated. See
N.Y. State Bar Ass'n Task Force on Wrongful Convictions, Final Report at 5 (2009) ("NYSBA Final
Report"), https://nysba.org/NYSBA/Practice%20Resources/Substantive%20Reports/PDF/FinalWrongful
ConvictionsReport.pdf. Thirty one of those convictions
were attributable to "government practices." Id. at 7.
But the study's authors were unable to locate any
"public disciplinary steps against prosecutors" involved in the cases. Id. at 29. The Task Force also
received testimony that, although courts found prosecutorial misconduct in approximately 200 cases
between the late 1970s and 2003, only two prosecutors
had ever been disciplined by their own offices. Id.
at 31.
Finally, a 2010 USA Today study of federal criminal prosecutions "found 201 cases where federal
prosecutors acted improperly, but in a review of bar
records could only locate a single instance where a federal prosecutor was disbarred in 'the [previous] twelve
years." Thomas P. Sullivan & Maurice Possley, The
Chronic Failure To Discipline Prosecutors for Misconduct: Proposals for Reform, 105 J. Crim. L. &
Criminology 881, 892 (2015) (citing Brad Heath &
Kevin McCoy, Prosecutors' Conduct Can Tip Justice
Scales, USA Today (Sept. 23, 2010)).
Together, this empirical record demonstrates that
prosecutorial discipline is not a meaningful deterrent
to the use of false testimony. Instead, only a meaningful remedy—reversing convictions—can check
abusive prosecutorial practices. As Judge Kozinski observed, "a legal environment that tolerates sharp

19
prosecutorial practices gives important and undeserved career advantages to prosecutors who are
willing to step over the line, tempting others to do the
same." Hon. Alex Kozinski, Criminal Law 2.0, Preface, 44 Geo. L.J. Ann. Rev. Crim. Proc. iii, xxvi (2015).
The Eleventh Circuit's approach does just that. By
permitting the government to present false testimony
so long as it does not "capitalize" on this evidence, the
decision below essentially holds that this practice is
not misconduct. But as explained above, adopting
such a rule would meaningfully risk wrongful convictions and threatens the fair administration of
criminal justice. Instead, enforcing the principle of
Napue, and reversing convictions where prosecutors
knowingly fail to correct false testimony, is the only
way to create a legal environment that preserves the
integrity of the judicial process and protects the fundamental fairness of criminal proceedings.

)

20
CONCLUSION
For the foregoing reasons, the petition should be
granted.

Respectfully submitted,
Courtney M. Oliva
Executive Director
CENTER ON THE
ADMINISTRATION OF
CRIMINAL LAW AT NYU
SCHOOL OF LAW
139 MacDougal Street
New York, NY 10012
(212) 998-6612

Mark W. Mosier
Counsel of Record
Rafael Reyneri
Megan C. Keenan
COVINGTON & BURLING TA .13
850 Tenth Street, NW
Washington, DC 20001
mmosier@cov.com
(202) 662-6000

October 2020

Counsel for Amicus Curiae

